           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION

    MANUAL COMPUTATI0NS OF
    SUPPLEMENTAL SECURITY
       INCOME PAYMENTS

      June 2010   A-07-09-19060




 AUDIT REPORT
                                                      Mis s io n
By c o n d u c tin g in d e p e n d e n t a n d o b je c tive a u d its , e va lu a tio n s a n d in ve s tig a tio n s ,
we in s p ire p u b lic c o n fid e n c e in th e in te g rity a n d s e c u rity o f S S A’s p ro g ra m s a n d
o p e ra tio n s a n d p ro te c t th e m a g a in s t fra u d , wa s te a n d a b u s e . We p ro vid e tim e ly,
u s e fu l a n d re lia b le in fo rm a tio n a n d a d vic e to Ad m in is tra tio n o ffic ia ls , Co n g re s s
a n d th e p u b lic .

                                                     Au th o rity
Th e In s p e c to r Ge n e ra l Ac t c re a te d in d e p e n d e n t a u d it a n d in ve s tig a tive u n its ,
c a lle d th e Offic e o f In s p e c to r Ge n e ra l (OIG). Th e m is s io n o f th e OIG, a s s p e lle d
o u t in th e Ac t, is to :

    Co n d u c t a n d s u p e rvis e in d e p e n d e n t a n d o b je c tive a u d its a n d
     in ve s tig a tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    P ro m o te e c o n o m y, e ffe c tive n e s s , a n d e ffic ie n c y with in th e a g e n c y.
    P re ve n t a n d d e te c t fra u d , wa s te , a n d a b u s e in a g e n c y p ro g ra m s a n d
     o p e ra tio n s .
    Re vie w a n d m a ke re c o m m e n d a tio n s re g a rd in g e xis tin g a n d p ro p o s e d
     le g is la tio n a n d re g u la tio n s re la tin g to a g e n c y p ro g ra m s a n d o p e ra tio n s .
    Ke e p th e a g e n c y h e a d a n d th e Co n g re s s fu lly a n d c u rre n tly in fo rm e d o f
     p ro b le m s in a g e n c y p ro g ra m s a n d o p e ra tio n s .

   To e n s u re o b je c tivity, th e IG Ac t e m p o we rs th e IG with :

    In d e p e n d e n c e to d e te rm in e wh a t re vie ws to p e rfo rm .
    Ac c e s s to a ll in fo rm a tio n n e c e s s a ry fo r th e re vie ws .
    Au th o rity to p u b lis h fin d in g s a n d re c o m m e n d a tio n s b a s e d o n th e re vie ws .

                                                       Vis io n
We s trive fo r c o n tin u a l im p ro ve m e n t in S S A’s p ro g ra m s , o p e ra tio n s a n d
m a n a g e m e n t b y p ro a c tive ly s e e kin g n e w wa ys to p re ve n t a n d d e te r fra u d , wa s te
a n d a b u s e . We c o m m it to in te g rity a n d e xc e lle n c e b y s u p p o rtin g a n e n viro n m e n t
th a t p ro vid e s a va lu a b le p u b lic s e rvic e wh ile e n c o u ra g in g e m p lo ye e d e ve lo p m e n t
a n d re te n tio n a n d fo s te rin g d ive rs ity a n d in n o va tio n .
                                              SOCIAL SECURITY
MEMORANDUM

Date:      June 25, 2010                                                             Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Manual Computations of Supplemental Security Income Payments (A-07-09-19060)


           OBJECTIVE
           The objective of our review was to determine whether the Social Security
           Administration’s (SSA) internal controls were adequate to ensure that manual
           computations of Supplemental Security Income (SSI) payments were calculated and
           reviewed in accordance with SSA policies and procedures.

           BACKGROUND

           The SSI program is a national Federal cash assistance program administered by SSA
           that provides a minimum level of income to financially needy individuals who are aged,
                              1
           blind, or disabled. SSI recipients are required to report events and changes of
           circumstances that may affect their eligibility and payment amounts—including changes
           in income, resources, and living arrangements. 2

           In some cases, SSA’s automated system cannot compute an accurate SSI payment.
           This most often occurs when a recipient reports an event that impacts SSI payments
           that have already been issued. As a result, an SSA employee must manually compute
           the SSI payment amount the recipient should have been paid. The manually computed
           amount is also used to compute any under- or overpayments resulting from the event.
           Examples of events that are not typically reported to SSA until after they occur include
           changes in living arrangements, resources, and marital status.




           1
               The Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
               The Social Security Act § 1631(e)(1); 42 U.S.C. § 1383(e)(1); 20 C.F.R. §§ 416.701 and 416.708.
Page 2 - The Commissioner

RESULTS OF REVIEW
We reviewed a sample of 275 SSI recipients who received SSI payments between
                                                                      3
July 1, 2006 and June 30, 2008 based on 1 or more manual computations. Our review
found that manual computations were not always accurate or updated when necessary.
Specifically, for the 275 SSI recipients, we found:

•     82 SSI recipients had at least 1 manual computation that was not calculated
      accurately. Because of inaccurate calculations, we project that 14,393 recipients in
      our population were overpaid approximately $7.7 million, and 18,453 recipients were
      underpaid approximately $6.7 million.

•     18 SSI recipients already receiving SSI payments based on an existing manual
      computation did not have a new manually computed SSI payment amount when a
      subsequent event occurred—such as a change in resources. Therefore, we project
      that 2,952 recipients in our population were overpaid approximately $968,000, and
                                                                4, 5
      3,691 recipients were underpaid approximately $608,000.

Further, based on the manual computations that were not accurate or updated during
the 2-year period covered by our review, we believe that SSA continued to inaccurately
pay SSI recipients for the 12 months following our review period. Specifically, we
estimate that SSA overpaid recipients about $4.4 million 6 and underpaid recipients
about $3.7 million 7 for the period July 2008 through June 2009.

Our review also found that manual computations were not always reviewed by a second
employee, as required by SSA policies and procedures. In addition, we found that
some manual computations that were reviewed by a second employee were still
inaccurate.




3
 Manual computations can be performed through the force-due, force-pay, one-time payment, or start-
date processes. Our review focused on manually computed SSI payments performed through the force-
due process. See Appendix B for Scope and Methodology.
4
  Some recipients in our sample had multiple manual computations during the period covered by our
review. We found three recipients had at least one manual computation that was not calculated
accurately and had an existing manual computation that was not updated when a subsequent event
occurred.
5
  We sent the results of our sample review to SSA for verification, and its responses were incorporated
into our analysis.
6
    See Appendix C, Table C-7.
7
    See Appendix C, Table C-8.
Page 3 - The Commissioner

INACCURATE MANUAL COMPUTATIONS

We reviewed a sample of 275 SSI recipients who received SSI payments between
July 1, 2006 and June 30, 2008 based on 1 or more manual computations. Our review
identified 82 SSI recipients who had at least 1 manual computation that was not
                       8
calculated accurately. Based on our sample, we project that manual computations
were not calculated accurately for 30,262 of the 101,489 recipients in our population. 9
As a result of the inaccurate computations, we project that 14,393 recipients were
overpaid a total of approximately $7.7 million, and 18,453 recipients were underpaid a
total of approximately $6.7 million. 10 Further, based on these inaccurate manual
computations, we estimate that SSA overpaid recipients about $3.9 million 11 and
underpaid recipients about $3.4 million 12 during the period July 2008 through
June 2009.

The inaccurate manual computations most likely occurred because an SSA employee
did not properly consider all factors that affected the resulting SSI payment amount, as
required by SSA policy. 13 These factors included living arrangements, income, and
resources. For example, in March 2007, an SSI recipient separated from her husband,
who was receiving Disability Insurance (DI) and SSI payments. Before the separation,
and in accordance with SSA’s policy, the husband’s benefits were considered in
determining the recipient’s SSI payment amount. 14 When SSA became aware of the
separation, an SSA employee made a manual computation to determine the amount of
the SSI payment the recipient should have received beginning in April 2007. 15 The
manual computation properly removed the recipient’s husband’s DI benefits and



8
 We found 3 of the 82 recipients who had at least 1 manual computation that was not calculated
accurately also had an existing manual computation that was not updated when a subsequent event
occurred.
9
    See Appendix C, Table C-3.
10
  Some recipients in our sample had multiple manual computations during the period covered by our
review. As a result, each manual computation could result in a recipient being overpaid or underpaid.
Therefore, the 14,393 recipients we project as overpaid and the 18,453 recipients we project as underpaid
do not equal the 30,262 recipients we project as paid inaccurately. See Appendix C, Table C-3.
11
     See Appendix C, Table C-7.
12
     See Appendix C, Table C-8.
13
     SSA, POMS SI 02005.090.
14
     20 C.F.R. §§ 416.1120, 416.1121, and 416.1123.
15
   SSA policy states that, when a couple separates, the change is effective with the first of the month
following the month of change (SSA, POMS SI 02005.030). Therefore, the couple’s separation in March
was not effective for SSI payment purposes until April.
Page 4 - The Commissioner

considered the fact that she was no longer part of an eligible couple. 16 However, the
husband continued to pay rent for the recipient. SSA counted this rent as in-kind
support and maintenance, which is unearned income, for the recipient when the SSI
payment for April through June 2007 was manually computed. 17 As a result, the
recipient was paid $415 per month. However, the unearned income should not have
reduced the recipient’s SSI payment amount until June 2007. 18 Therefore, the recipient
was underpaid $208 each month, for a total of $416, until the payment became
accurate in June.

SSA has a policy to ensure the accuracy of manual computations. Specifically, the
policy requires that a qualified employee, designated by management, authorize a
manual computation. In addition, a second employee is required to review the manual
computation and document the review in the electronic system or on the proper form. 19
However, it appears that SSA employees may not have been following this policy.

We determined that the 275 SSI recipients in our sample had 625 manual
computations. Of these, we found no evidence that 459 (73 percent) were reviewed by
a second employee. 20 Further, we found that 104 (23 percent) of the 459 computations
that were not reviewed by a second employee were inaccurate. 21, 22

Assuming the population of manual computations exhibits characteristics similar to our
sample findings, we estimate that the 101,489 SSI recipients in our population had a
total of 230,380 manual computations. 23 We estimate that 168,177 of the




16
  An eligible couple is defined as two individuals who are both eligible for SSI, considered spouses for SSI
purposes, and living in the same household (20 C.F.R. § 416.1801).
17
     20 C.F.R. § 416.1130.
18
     SSA Handbook §2183.
19
   In April 2009, SSA updated this policy for reviewing manual computations. The new policy added
clarification about who should conduct the review and provided guidance on how the review should be
conducted and documented.
20
  For the manual computations we identified as not reviewed by a second employee, SSA stated that a
review had been performed for some. However, SSA could not provide documentation supporting the
review. Since we could not confirm that a review was performed, we considered these as not reviewed.
21
     See Appendix C, Table C-4.
22
  Our review identified 82 SSI recipients with at least 1 manual computation that was not calculated
accurately. These 82 recipients had a total of 138 inaccurate manual computations. Of these
138 inaccurate computations, 104 (75 percent) were not reviewed by a second employee.
23
     See Appendix C, Table C-1.
Page 5 - The Commissioner

230,380 manual computations were not reviewed by a second employee. Further, we
estimate that 38,681 of the 168,177 manual computations that were not reviewed were
inaccurate. 24

We also found that a review by a second employee did not always guarantee the
accuracy of the manual computation. We determined that 166 (27 percent) of the
625 manual computations were reviewed by a second employee. However,
34 (20 percent) of the 166 manual computations that were reviewed by a second
employee were inaccurate. 25

Assuming the population of manual computations exhibits characteristics similar to our
sample findings, we estimate that 62,203 of the 230,380 manual computations were
reviewed by a second employee. However, 12,441 of the 62,203 manual computations
that were reviewed by a second employee were inaccurate. 26

Given the high rate of manual computations our review identified as inaccurate,
including those that had a review by a second employee, SSA should provide refresher
training to staff who prepare and review manual computations. In addition, SSA should
remind staff that the review of manual computations by a second employee should be
performed and documented.

MANUAL COMPUTATIONS WITH SUBSEQUENT ERRORS

Our review of the sample of 275 SSI recipients identified 18 recipients who did not have
a new manually computed SSI payment amount when a subsequent event occurred—
such as a change in resources. 27 These recipients were already receiving SSI
payments based on an existing manual computation.

Based on our sample, we project that SSA did not manually compute a new SSI
payment amount when a subsequent event occurred for 6,643 recipients in our
           28
population. Because a new payment amount was not computed to reflect the
subsequent event, we project that 2,952 recipients were overpaid a total of
approximately $968,000, and 3,691 recipients were underpaid a total of



24
     See Appendix C, Table C-4.
25
     See Appendix C, Table C-5.
26
     See Appendix C, Table C-5.
27
  We found that 3 of the 18 recipients who had an existing manual computation that was not updated
when a subsequent event occurred also had at least one manual computation that was not calculated
accurately.
28
     See Appendix C, Table C-6.
Page 6 - The Commissioner

approximately $608,000. 29 Further, based on these manual computations that did not
have a new computation made when a subsequent event occurred, we estimate that
SSA overpaid recipients about $484,000, 30 and underpaid recipients about
$304,000 31 during the period July 2008 through June 2009.

SSA most likely did not manually compute a new SSI payment amount because it did
not recognize a subsequent event had occurred. The subsequent events that were not
recognized included changes in income, resources, and spouse’s eligibility for SSI. For
example, for the period July through November 2007, one recipient in our sample had
her SSI payments manually computed because she separated from her spouse.
However, the manual computation amount should have been adjusted for
September 2007 because the recipient had excess resources. 32 The computation was
not adjusted, and the recipient was paid $856 for the month of September. Since a
payment was not due for September, the recipient was overpaid $856 during the period
covered by the manual computation.

SSA has a policy to ensure manually computed SSI payments remain appropriate.
Specifically, the policy requires that recipients with an existing manual computation in
place be reviewed to

•     determine whether the manual computation is still needed;
•     update the payment amount if there were changes in income, living arrangement, or
      other post-eligibility factors; and
•     update the payment amount to include cost-of-living increases.

SSA identifies individuals with a manually computed SSI payment at the end of each
quarter. A list of these individuals is published on the New York Regional Office’s Force
Pay Listings Website. SSA policy instructs field office employees to review the
individuals who appear on the list. However, this policy does not state how frequently
field office employees are to review the individuals on the list.

Inaccurate payments can result if field office employees do not conduct a timely review
of the list to ensure the computation amounts are adjusted to reflect changes that may
affect SSI payments. Therefore, we recommend SSA update its policy to provide
additional guidance to field office employees on how frequently the listing should be
reviewed to determine whether manually computed SSI payments remain appropriate.

29
  The existing manual computation that the subsequent event affected for these recipients was computed
accurately. Therefore, the inaccurate payments made to recipients as a result of a subsequent event are
not included in the inaccurate payments made to recipients as a result of an inaccurate manual
computation previously discussed in the report. See Appendix C, Table C-6.
30
     See Appendix C, Table C-7.
31
     See Appendix C, Table C-8.
32
  An individual (or couple) with countable resources in excess of the applicable limit (which is set by
statute) is not eligible for Federal SSI (SSA, POMS SI 01110.003).
Page 7 - The Commissioner

CONCLUSION AND RECOMMENDATIONS

Our review identified weaknesses in SSA’s manual computation process. We found
that manual computations were not always accurately calculated by SSA employees,
resulting in some SSI recipients being overpaid and some being underpaid.

In addition, a large percentage of manual computations was not reviewed by a second
employee, as required by SSA policy. Furthermore, some manual computations that
were reviewed by a second employee were still inaccurate.

We also found that SSA employees did not always update existing manually computed
SSI payment amounts when subsequent events occurred. Accordingly, some SSI
recipients were overpaid, and some were underpaid.

SSA has taken action to resolve some of the SSI payment errors we identified. As of
February 2010, SSA had assessed four overpayments and nine underpayments for
recipients we identified as being paid incorrectly.

We recommend SSA:

1. Take corrective action to properly resolve all SSI payment errors for recipients in our
   sample.

2. Provide refresher training to staff who prepare and review manual computations.

3. Remind staff that the review of manual computations by a second employee should
   be performed and documented.

4. Update its policy to provide additional guidance to field office employees on how
   frequently the Force Pay Listing should be reviewed to determine whether manually
   computed SSI payments remain appropriate.

AGENCY COMMENT
SSA agreed with our recommendations. See Appendix D for the full text of SSA’s
comments.




                                                Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Scope and Methodology

APPENDIX C – Sampling Methodology and Results

APPENDIX D – Agency Comment

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
DI       Disability Insurance
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
SSR      Supplemental Security Record
U.S.C.   United State Code
                                                                      Appendix B

Scope and Methodology
To accomplish our objective, we:

   •   Reviewed applicable Federal laws and regulations and pertinent sections of the
       Program Operations Manual System related to manual computations of
       Supplemental Security Income (SSI) payments.

   •   Interviewed individuals from the Kansas City Office of the Regional
       Commissioner’s Center for Program Support to obtain an understanding of the
       manual computation process.

   •   Obtained a file of 101,489 SSI recipients who received SSI payments between
       July 1, 2006 and June 30, 2008 based on 1 or more manual computations, as
       identified on the Supplemental Security Record (SSR). From this file, we
       selected a random sample of 275 SSI recipients. For each sampled recipient
       we:

           Analyzed recipient information available on the Social Security
            Administration’s (SSA) electronic systems—including the SSR and the
            Online Retrieval System.
           Identified the number of manual computations for each recipient and
            estimated the total manual computations in the population.
           Identified why a manual computation was required.
           Determined whether the manual computation was accurate.
           Identified the amount over- or underpaid if the manual computation was
            inaccurate and projected the results to the population.
           Determined whether the manual computation was reviewed in accordance
            with SSA policy.

   •   Sent the results of our sample review to SSA for verification and incorporated its
       responses into our analysis.

We conducted our audit in Kansas City, Missouri, from January 2009 through
January 2010. We determined the data used for this audit were sufficiently reliable to
meet our objective. The entity audited was the Office of Operations. We conducted
this performance audit in accordance with generally accepted government auditing
standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and
conclusions based on our audit objectives. We believe the evidence obtained provides
a reasonable basis for our findings and conclusions based on our audit objectives.
                                                                                      Appendix C

Sampling Methodology and Results
We obtained a data extract—from all segments of the Social Security Administration’s
(SSA) Supplemental Security Record (SSR)—that contained all recipients who received
Supplemental Security Income (SSI) payments between July 1, 2006 and
June 30, 2008 based on one or more manual computations. From the extract, we
identified a population of 101,489 SSI recipients and selected a random sample of
275 for review.

We determined that the 275 recipients in our sample had 625 manual computations on
the SSR. Therefore, we estimate that the 101,489 recipients in the population had a
total of 230,380 manual computations. 1 See Table C-1.

                           Table C-1: Manual Computations for
                            SSI Recipients in Total Population
           Recipients in Population                                                      101,489
           Recipients in Sample                                                              275
           Number of Manual Computations for Sampled Recipients                              625
           Average Number of Manual Computations Per Recipient
                                                                                             2.27
           (625 divided by 275)
           Estimated Number of Manual Computations for Recipients
                                                                                         230,380
           in Total Population (101,489 multiplied by 2.27)

Of the 275 SSI recipients in our sample, we determined that 82 had 1 or more manual
computations that were not calculated accurately. These inaccurate calculations
resulted in inaccurate payments. Specifically, 39 recipients were overpaid a total of
$20,964, and 50 recipients were underpaid a total of $18,206. See Table C-2.

Some recipients in our sample had multiple manual computations during the period
covered by our review. As a result, each manual computation could result in an error
and the recipient being overpaid for some computations and/or underpaid for others.
Therefore, the 39 recipients overpaid and the 50 recipients underpaid do not add to the
82 recipients paid inaccurately because 7 recipients received both over- and
underpayments.




1
 To determine the number of manual computations for the 275 recipients in our sample, we performed
detailed analysis of the recipients’ SSR. Since it was not practical to conduct similar analysis on the entire
population, we estimated the total number of manual computations for the population.


                                                     C-1
                    Table C-2: Recipients with Inaccurate Payments
        Number of Recipients Inaccurately Paid                            82
                                    Overpayments
                      Payment Results                  Number of Recipients
        One Overpayment                                                   22
        Multiple Overpayments                                             10
        Both Overpaid and Underpaid 2                                      7
        Total Recipients Overpaid                                         39
        Total Dollars Overpaid                                      $20,964
                                    Underpayments
                      Payment Results                  Number of Recipients
        One Underpayment                                                  27
        Multiple Underpayments                                            16
        Both Overpaid and Underpaid2                                       7
        Total Recipients Underpaid                                        50
        Total Dollars Underpaid                                     $18,206

Based on the results of our review, we project that SSA inaccurately paid 30,262 of the
101,489 SSI recipients in our population because their manual computations were not
accurately calculated. Specifically, 14,393 recipients were overpaid $7,736,724, and
18,453 recipients were underpaid $6,718,882. See Table C-3.

Some recipients in our sample had multiple manual computations during the period
covered by our review. As a result, each manual computation could result in an error
and the recipient being overpaid for some computations and underpaid for others.
Therefore, the 14,393 recipients overpaid and the 18,453 recipients underpaid do not
add to the 30,262 recipients paid inaccurately.




2
  These seven recipients had multiple manual computations during the period covered by our review. As a
result, these recipients were overpaid for some computations and underpaid for others. The subsequent
over- or underpayment amount attributed to each recipient is included in the appropriate section of
Table C-2.


                                                 C-2
                       Table C-3: Inaccurate Manual Computations
                    Population Size                          101,489
                    Sample Size                                  275
                       Number of SSI Recipients Paid Inaccurately
                    Recipients Identified in Sample               82
                    Projected Quantity in Universe            30,262
                    Lower Limit - Quantity                    25,661
                    Upper Limit - Quantity                    35,196
                            Number of SSI Recipients Overpaid
                    Recipients Identified in Sample               39
                    Projected Quantity in Universe            14,393
                    Lower Limit - Quantity                    11,007
                    Upper Limit - Quantity                    18,377
                       Associated Dollar Amount - Overpayments
                    Overpayments Identified in Sample 3      $20,964
                    Point Estimate                        $7,736,724
                    Projection Lower Limit                $3,934,897
                    Projection Upper Limit              $11,538,551
                           Number of SSI Recipients Underpaid
                    Recipients Identified in Sample               50
                    Projected Quantity in Universe            18,453
                    Lower Limit - Quantity                    14,665
                    Upper Limit - Quantity                    22,769
                       Associated Dollar Amount - Underpayments
                    Underpayments Identified in Sample3      $18,206
                    Point Estimate                        $6,718,882
                    Projection Lower Limit                $4,250,650
                    Projection Upper Limit                $9,187,114
                    Note: The projections in this table were calculated at the
                    90-percent confidence level.

We determined that 459 (73 percent) of the 625 manual computations were not
reviewed by a second employee, as required by SSA policy. Of these
459 computations, 355 (77 percent) were accurate, and 104 (23 percent) were
inaccurate.

Based on the results of our analysis, we estimate that SSA did not review 168,177 of
the 230,380 manual computations as required by SSA policy. Of the
168,177 computations not reviewed, we estimate 129,496 (77 percent) were accurate,
and 38,681 (23 percent) were inaccurate. See Table C-4.




3
 A portion of this amount includes State Supplements, which are monies paid to the recipient by the
Federal Government on behalf of the State.


                                                   C-3
                  Table C-4: Manual Computations Not Reviewed
             Manual Computations Not Reviewed in Total Population
 Total Number of the 625 Manual Computations that Were Not Reviewed      459
 Percent of Manual Computations that Were Not Reviewed for Sampled
                                                                        73%
 Recipients (459 divided by 625)
 Estimated Number of Manual Computations that Were Not Reviewed in
                                                                     168,177
 Total Population (230,380 multiplied by 73%)
         Accurate Manual Computations Not Reviewed for Recipients in
                                   Total Population
 Number of the 459 Manual Computations that Were Not Reviewed that
                                                                         355
 Were Accurate
 Percent of Manual Computations that Were Not Reviewed for Sampled
                                                                        77%
 Recipients that Were Accurate (355 divided by 459)
 Estimated Number of Manual Computations that Were Not Reviewed for
                                                                     129,496
 Total Population that Were Accurate (168,177 multiplied by 77%)
        Inaccurate Manual Computations Not Reviewed for Recipients in
                                   Total Population
 Number of the 459 Manual Computations that Were Not Reviewed that
                                                                         104
 Were Inaccurate
 Percent of Manual Computations that Were Not Reviewed for Sampled
                                                                        23%
 Recipients that Were Inaccurate (104 divided by 459)
 Estimated Number of Manual Computations that Were Not Reviewed for
                                                                      38,681
 Total Population that Were Inaccurate (168,177 multiplied by 23%)

We determined that 166 (27 percent) of the 625 manual computations were reviewed
by a second employee. However, of these 166 computations, we found 132 were
accurate, and 34 were inaccurate.

Based on the results of our analysis, we estimate that SSA reviewed 62,203 of the
230,380 manual computations (27 percent). Of the 62,203 computations that were
reviewed, 49,762 (80 percent) were accurate and 12,441 (20 percent) were inaccurate.
See Table C-5.




                                         C-4
                     Table C-5: Manual Computations Reviewed
                Manual Computations Reviewed in Total Population
 Total Number of the 625 Manual Computations that Were Reviewed           166
 Percent of Manual Computations that Were Reviewed for Sampled
                                                                         27%
 Recipients (166 divided by 625)
 Estimated Number of Manual Computations that Were Reviewed in Total
                                                                      62,203
 Population (230,380 multiplied by 27%)
   Accurate Manual Computations Reviewed for Recipients in Total Population
 Number of the 166 Manual Computations that Were Reviewed that Were
                                                                          132
 Accurate
 Percent of Manual Computations that Were Reviewed for Sampled
                                                                         80%
 Recipients that Were Accurate (132 divided by 166)
 Estimated Number of Manual Computations that Were Reviewed for Total
                                                                      49,762
 Population that Were Accurate (62,203 multiplied by 80%)
  Inaccurate Manual Computations Reviewed for Recipients in Total Population
 Number of the 166 Manual Computations that Were Reviewed that Were
                                                                           34
 Inaccurate
 Percent of Manual Computations that Were Reviewed for Sampled
                                                                         20%
 Recipients that Were Inaccurate (34 divided by 166)
 Estimated Number of Manual Computations that Were Reviewed for Total
                                                                      12,441
 Population that Were Inaccurate (62,203 multiplied by 20%)

We determined that SSA did not manually compute a new SSI payment amount when a
subsequent event occurred for 18 of the 275 sampled SSI recipients. Specifically,
8 recipients were overpaid a total of $2,623, and 10 recipients were underpaid a total
of $1,646.

Based on the results of our review, we project that SSA inaccurately paid 6,643 of the
101,489 recipients in our population. As a result of not computing a new payment
amount, 2,952 recipients were overpaid $968,113 and 3,691 recipients were underpaid
$607,580. See Table C-6.




                                         C-5
                    Table C-6: Errors Due to Subsequent Events
                    Population Size                           101,489
                    Sample Size                                   275
                        Number of SSI Recipients Paid Inaccurately
                    Recipients Identified in Sample                18
                    Projected Quantity in Universe              6,643
                    Lower Limit - Quantity                      4,340
                    Upper Limit - Quantity                      9,690
                        Number of SSI Recipients - Overpayments
                    Recipients Identified in Sample                 8
                    Projected Quantity in Universe              2,952
                    Lower Limit - Quantity                      1,479
                    Upper Limit - Quantity                      5,261
                        Associated Dollar Amount - Overpayments
                    Overpayments Identified in Sample 4        $2,623
                    Point Estimate                           $968,113
                    Projection Lower Limit                   $156,119
                    Projection Upper Limit                 $1,780,107
                        Number of SSI Recipients - Underpayments
                    Recipients Identified in Sample                10
                    Projected Quantity in Universe              3,691
                    Lower Limit - Quantity                      2,018
                    Upper Limit - Quantity                      6,177
                       Associated Dollar Amount - Underpayments
                    Underpayments Identified in Sample4        $1,646
                    Point Estimate                           $607,580
                    Projection Lower Limit                   $133,490
                    Projection Upper Limit                 $1,081,669
                    Note: The projections in this table were calculated at the
                    90-percent confidence level.

Based on the manual computations that were not accurate or updated during the 2-year
period covered by our review, we believe that SSA continued to inaccurately pay SSI
recipients for the 12-month period following our review.

Specifically, we estimate that SSA overpaid recipients an additional $4,352,419 for the
period July 2008 through June 2009. To arrive at this amount, we calculated the per-
year overpayment dollar error for the 39 SSI recipients who had inaccurate manual
computations and the 8 SSI recipients whose manual computations were not updated
when a subsequent event occurred. See Table C-7.




4
 A portion of this amount includes State Supplements, which are monies paid to the recipient by the
Federal Government on behalf of the State.


                                                   C-6
               Table C-7: Additional Dollar Estimates - Overpayments
                   Errors Due to Inaccurate Manual Computations
 Total Projected Overpayments for Recipients Who Had Inaccurate
                                                                     $7,736,724
 Manual Computations for the 2-year Audit Period (see Table C-3)
 Total Overpayments Per-Year for the Recipients Who Had Inaccurate
                                                                     $3,868,362
 Manual Computations ($7,736,724 divided by 2 years)
                           Errors Due to Subsequent Events
 Total Projected Overpayments for Recipients Who Did Not Have
 Manual Computations Updated When a Subsequent Event Occurred         $968,113
 for the 2-year Audit Period (see Table C-6)
 Total Overpayments Per-Year for the Recipients Who Did Not Have
 Manual Computations Updated When a Subsequent Event Occurred         $484,057
 ($968,113 divided by 2 years)
 Total Estimated Overpayments for the 12-month Period July 2008
                                                                     $4,352,419
 through June 2009 ($3,868,362 plus $484,057)

We also estimate that SSA underpaid recipients an additional $3,663,231 for the period
July 2008 through June 2009. To arrive at this amount, we calculated the per-year
underpayment dollar error for the 50 SSI recipients who had inaccurate manual
computations and the 10 SSI recipients whose manual computations were not updated
when a subsequent event occurred. See Table C-8.

              Table C-8: Additional Dollar Estimates - Underpayments
                   Errors Due to Inaccurate Manual Computations
 Total Projected Underpayments for Recipients Who Had Inaccurate
                                                                     $6,718,882
 Manual Computations for the 2-year Audit Period (see Table C-3)
 Total Underpayments Per-Year for the Recipients Who Had
                                                                     $3,359,441
 Inaccurate Manual Computations ($6,718,882 divided by 2 years)
                           Errors Due to Subsequent Events
 Total Projected Underpayments for Recipients Who Did Not Have
 Manual Computations Updated When a Subsequent Event Occurred         $607,580
 for the 2-year Audit Period (see Table C-6)
 Total Underpayments Per-Year for the Recipients Who Did Not Have
 Manual Computations Updated When a Subsequent Event Occurred         $303,790
 ($607,580 divided by 2 years)
 Total Estimated Underpayments for the 12-month Period
                                                                     $3,663,231
 July 2008 through June 2009 ($3,359,441 plus $303,790)




                                         C-7
                 Appendix D

Agency Comment
D-1
D-2
                                                                       Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Mark Bailey, Kansas City Audit Director
   Shannon Agee, Audit Manager

Acknowledgments

In addition to those named above:

   Katherine Wunsch
   Tonya Eickman

For additional copies of this report, please visit our web site at www.ssa.gov/oig or
contact the Office of the Inspector General’s Public Affairs Specialist at (410) 965-3218.
Refer to Common Identification Number A-07-09-19060.
                              DISTRIBUTION SCHEDULE


Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Committee on the Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Oversight and Government Reform


Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security Pensions and
Family Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
